BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in Seneca
County, New York v. Cayuga Indian Nation of New
York, was sent via Next Day Service to the U.S.
Supreme Court, and via e-mail service to the following
parties listed below, this 17th day of February, 2021:
Daniel J. French
French-Alcott, PLLC
300 South State Street
9th Floor
Syracuse, NY 13202
(315) 425-2804
dfrench@barclaydamon.com
David W. DeBruin
Zachary C. Schauf
Jenner & Block, LLP
1099 New York Avenue, NW
Washington, DC 20001
(202) 639-6015
ddebruin@jenner.com
zscha uf@jenner.com

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
' Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Lee Alcott
Barclay Damon, LLP
Barclay Damon Tower
125 East Jefferson Street
Syracuse, NY 13202
(315) 425-2700
lalcott@barclaydamon.com
Counsel for Respondent
Paul D. Clement
Counsel of Record
Erin E. Murphy
Michael D. Lieberman
Andrew C. Lawrence
Kirkland & Ellis LLP
1301 Pennsylvania Ave., NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
Brian Laudadio
Mary P. Moore
Louis P. DiLorenzo
Bond, Schoeneck & King PLLC
350 Linden Oaks
Third Floor
Rochester, NY 14625
Counsel for Petitioner

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on February 17, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

%0

&6~ {Tt
cfo4,l{J.

Notary Public

dOd (

7

[seal]
JOHN D. GALLAGHER
'\Jotary Public, State of Ohio
My Commission Expires
February 14, 2023

